Department of Homeland Security
   Office of Inspector General

                 Review of the U.S. Coast Guard's 

                Expenditure Plans for the American 

              Recovery and Reinvestment Act of 2009 


                                      (Redacted) 





      American Recovery and Reinvestment Act of 2009





OIG-10-06                                               October 2009
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 25028




                                        October 23, 2009

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities for programs, grants, and
projects awarded by the department under the American Recovery and Reinvestment Act
of 2009 to promote economy, efficiency, and effectiveness within the department.

This report includes observations on the department’s efforts to manage funds
appropriated by the American Recovery and Reinvestment Act of 2009, and includes
issues that should be considered by the department and its components to improve the
management of those funds. We trust this report will result in more effective, efficient,
and economical operations. We express our appreciation to all those who contributed to
the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2 


Results of Review ................................................................................................................4 


     Plans Generally Practical, Thorough, and Comprehensive ...........................................5 


     Recovery Act Goals .......................................................................................................6 


     Management Comments and OIG Analysis ..................................................................9 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................10 

     Appendix B:           Management Comments to the Draft Report .......................................11 

     Appendix C:           Schedule of Obligations and Outlays for Recovery Act Funds ...........13 

     Appendix D:           Major Contributors to This Report ......................................................16 

     Appendix E:           Report Distribution ..............................................................................17 


Abbreviations
     FY                  fiscal year      

     DHS                 Department of Homeland Security 





  Review of the U.S. Coast Guard’s Expenditure Plans for the American Recovery and Reinvestment Act of 2009
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                          The American Recovery and Reinvestment Act of 2009 (Recovery
                          Act) allocated $240 million to the Coast Guard, including $142
                          million for the alteration or removal of obstructive bridges under
                          the Truman-Hobbs Act of 1946, and $98 million for acquisition,
                          construction, and improvements to the Coast Guard’s shore
                          facilities and vessels. As required by the Recovery Act, the Coast
                          Guard issued two plans for expending the stimulus funds in both of
                          these areas.

                          We reviewed the expenditure plans to determine whether they
                          were practical, thorough, comprehensive, and designed to meet the
                          goals of the Recovery Act. Further, we evaluated the plans
                          according to prudent management principles, such as risk
                          mitigation and management control strategies.

                          The Coast Guard generally developed practical, thorough, and
                          comprehensive plans to spend Recovery Act funds to alter
                          obstructive bridges and to acquire, construct, or improve its shore
                          facilities and vessels. Although the plans were generally designed
                          to meet the Recovery Act’s goals, the Coast Guard’s plans for
                          shore facility and vessel projects and alteration or removal of
                          obstructive bridges did not meet the Recovery Act’s “quick-start”
                          goal of using 50% of the stimulus funds for activities that could be
                          initiated by June 17, 2009.

                          We are not making any recommendations in this report.




 Review of the U.S. Coast Guard’s Expenditure Plans for the American Recovery and Reinvestment Act of 2009

                                                  Page 1
Background
                            The American Recovery and Reinvestment Act of 2009, Public
                            Law 111-5 (Recovery Act), was enacted on February 17, 2009,
                            injecting $787 billion of federal funds into the economy to
                            preserve and stimulate economic growth in the United States.
                            The Recovery Act made supplemental appropriations to federal
                            departments and agencies for infrastructure investment, energy
                            efficiency and science, assistance to the unemployed and
                            disabled veterans, and state and local stabilization.

                            Under the provisions of the Recovery Act, the Department of
                            Homeland Security (DHS) received approximately $2.8 billion
                            for equipment, construction, infrastructure improvement, and
                            emergency management grants. The Coast Guard received $142
                            million of this amount to alter or remove obstructive bridges in
                            accordance with the Truman-Hobbs Act of 1946 1 and an
                            additional $98 million for acquisition, construction, and
                            improvements to Coast Guard shore facilities and vessels.

                            The Coast Guard issued expenditure plans for Recovery Act
                            funds on April 3, 2009, as required by the Recovery Act. The
                            Coast Guard issued an update to the acquisition, construction,
                            and improvements plan on July 30, 2009. We reviewed these
                            expenditure plans to determine whether they were practical,
                            thorough, comprehensive, and designed to meet the goals of the
                            Recovery Act. Further, we evaluated the plans according to
                            prudent management principles, such as risk mitigation and
                            management control strategies. We did not evaluate the original
                            process the Coast Guard used to establish its criteria or any
                            underlying assumptions.

                            Alteration of Bridges

                            The Coast Guard determines which bridges are eligible for
                            alteration or removal under the Truman-Hobbs Act. The Coast
                            Guard then conducts an eligibility investigation if a bridge has a
                            history of allisions 2 or a history of complaints that the bridge has
                            become an unreasonable obstruction to navigation. According to
                            Coast Guard regulations, the Coast Guard may issue an “Order to
1
  The Truman-Hobbs Act, 33 C.F.R. 511, et seq., allows federal funds to be used to alter or remove

bridges that are unreasonable obstructions to navigation. 

2
  The term “allision” refers to the striking of a moving vessel against a stationary vessel that is at anchor

or aground, or a fixed object such as a bridge, pier, or wharf. 



Review of the U.S. Coast Guard’s Expenditure Plans for the American Recovery and Reinvestment Act of 2009

                                                    Page 2
                           Alter” under the Truman-Hobbs Act if the benefit-to-cost ratio
                           for altering the obstructive bridge equals or exceeds one. 3

                           The federal government and the bridge owner share the design,
                           engineering, and construction costs to alter a bridge. The bridge
                           owner typically pays between 5% and 10% of the cost, in
                           proportion to the benefits that the owner is expected to receive
                           after the alteration. The bridge owner selects the contractor in
                           consultation with the Coast Guard.

                           Although Congress allocates funding for the alteration of
                           obstructive bridges each year during the budgeting process, it
                           usually does not approve enough funding in any given year to
                           complete an entire alteration project. Because of this, the Coast
                           Guard “banks” the appropriation for each obstructive bridge until
                           there are enough funds to complete the entire alteration project.

                           The Coast Guard will combine $142 million in Recovery Act
                           funds with previous appropriations of $120.4 million to complete
                           four bridge alteration projects in Iowa, Illinois, Alabama, and
                           Texas for a total of $262.4 million as detailed below:

                                                               Recovery Act       Previous
                                                                                                Order to
                                                                 Appro-            Appro-
                                 Bridge Name         State                                        Alter
                                                                 priation         priations
                                                                                                 Issued
                                                                (Millions)       (Millions)
                            Burlington Bridge      Iowa                                            1991
                            Elgin, Joliet &
                                                   Illinois                                        1995
                            Eastern Bridge
                            Mobile Bridge          Alabama                                         1999
                            Galveston Causeway
                                                   Texas                                           2001
                            Bridge
                                 Sub-Total                         $142.0          $120.4
                                 Total                                        $262.4


                           Acquisition, Construction, and Improvements to Facilities
                           and Vessels

                           The Recovery Act appropriated $98 million for “acquisition,
                           construction, and improvements to the Coast Guard’s shore
                           facilities and aids to navigation facilities; priority procurements
                           due to material and labor cost increases; and costs to repair,

3
  33 C.F.R. 116.30 (c). The benefit-to-cost ratio is calculated by dividing the annualized navigation
benefit of the proposed bridge alteration by the annualized government share of the cost of the alteration.
33 C.F.R. 116.30 (b).


Review of the U.S. Coast Guard’s Expenditure Plans for the American Recovery and Reinvestment Act of 2009

                                                  Page 3
                          renovate, assess, or improve vessels.” The Coast Guard plans to
                          use $88 million of this amount for construction, renovation, and
                          repair of shore facilities that support its operations in multiple
                          locations, as listed below:

                                               Project Name                          State
                                Station Coos Bay Covered Mooring                    Oregon
                                Coast Guard Cutter Sycamore Cordova                 Alaska
                                Housing Phase IV
                                Station Neah Bay Covered Moorings                   Washington
                                Support Center Elizabeth City Replacement           North
                                of Thrun Hall (Phase I)                             Carolina
                                Station Indian River Bulkhead Repairs               Delaware
                                Training Center Yorktown Water                      Virginia
                                Distribution System
                                Group/Air Station North Bend Engineering            Oregon
                                and Aviation Survival Technician Building


                          The Coast Guard will use the remaining $10 million to complete
                          six vessel improvement projects on its 12 High Endurance
                          Cutters, as listed below:

                                                                                     Number of
                                             Project Name
                                                                                      Cutters
                                Boiler Fireside Upgrades and Reliability              8 of 12
                                Improvement
                                Automatic Bus Tie Switch Upgrade                      8 of 12
                                Lube Oil Purifier Replacement                         4 of 12
                                Refrigeration System Upgrade                          4 of 12
                                Fire and Smoke Alarm System                            6 of 12
                                Auxiliary Salt Water Pump Replacement                 10 of 12



Results of Review
                 The Coast Guard generally developed practical, thorough, and
                 comprehensive plans to spend Recovery Act funds to alter obstructive
                 bridges and acquire, construct, or improve its shore facilities and vessels.
                 Although the plans were generally designed to meet Recovery Act goals,
                 the Coast Guard’s plans for shore facility and vessel projects and
                 alteration or removal of obstructive bridges did not meet the Recovery
                 Act’s “quick-start” goal of using 50% of the stimulus funds for activities
                 that could be initiated by June 17, 2009.




Review of the U.S. Coast Guard’s Expenditure Plans for the American Recovery and Reinvestment Act of 2009

                                                 Page 4
        Plans Generally Practical, Thorough, and Comprehensive
                 The Coast Guard generally developed practical, thorough, and
                 comprehensive plans to spend Recovery Act funds to alter obstructive
                 bridges and acquire, construct, or improve its shore facilities and vessels.
                 For example, the Coast Guard used merit-based selection criteria from
                 its existing guidance to choose four bridge projects, seven shore facility
                 projects, and six vessel projects to receive stimulus funding. The
                 expenditure plans included applicable clauses of the Recovery Act, such
                 as section 1605, which requires, with certain exceptions, that only iron,
                 steel, and manufactured goods produced in the United States be used for
                 the construction or alteration of a public work.

                          Bridge Alteration Projects

                          The Coast Guard, as required by the Recovery Act, selected four
                          bridge alteration projects that were “ready to proceed to
                          construction.” The Coast Guard also followed the guidance in its
                          Bridge Manual related to the alteration of unreasonably
                          obstructive bridges under the Truman-Hobbs Act. 4

                          Of 12 bridges identified as unreasonably obstructive, six bridges
                          had received previous Truman-Hobbs Act appropriations and
                          were “ready to proceed to construction.” According to the Coast
                          Guard, it selected projects from the list of six bridges based on
                          creating a greater economic impact by maximizing the number of
                          projects that could be completed with available funds.

                          Shore Facilities Projects

                          The Coast Guard used its Shore Facilities Project Development
                          Manual and Field Planning for Shore Infrastructure guidance 5
                          to develop its seven Recovery Act shore facilities projects.
                          According to the Coast Guard, it had already completed the field
                          planning process for the seven projects. The projects were also
                          “shovel ready” or close to ready and were expected to meet the
                          Recovery Act’s timely obligation and expenditure requirements.



4
  Commandant Instruction M16590.5C, Bridge Manual, Chapter 7 - Alteration of Unreasonably

Obstructive Bridges under the Truman-Hobbs Act, March 2004. 

5
  Commandant Instruction M11000.17, Field Planning for Shore Infrastructure, November 2007;

Commandant Instruction M11010.14, Shore Facilities Project Development Manual, February 1995. 



Review of the U.S. Coast Guard’s Expenditure Plans for the American Recovery and Reinvestment Act of 2009

                                                 Page 5
                          As of April 2009, the Coast Guard’s Shore Facilities
                          Requirements List contained 76 unfunded prioritized projects.
                          According to the Coast Guard, the seven projects selected were
                          high priorities on this list, met the requirements of the Recovery
                          Act guidance, and could be completed with the funding provided.

                          Vessel Projects

                          The Coast Guard followed the guidelines in its Naval
                          Engineering Manual 6 to select the six engineering change
                          projects for its High Endurance Cutters. The criteria also
                          includes factors such as safety, operational and mission
                          readiness, maintenance cost avoidance, logistics cost avoidance,
                          and risk. The Coast Guard also chose these projects because
                          they could be completed during annual dockside maintenance
                          rather than dry-dock maintenance, which occurs only once every
                          4 years.

          Recovery Act Goals
                  The Coast Guard generally designed expenditure plans to meet Recovery
                  Act goals. However, the Coast Guard’s plan for the shore facility and
                  vessel projects as well as the plan for alteration of obstructive bridges
                  did not meet the Recovery Act’s “quick-start” goal.

                          Quick-Start Activities Provision

                          The goal of the quick-start activities general provision (section
                          1602 of the Recovery Act) was to use at least 50% of the funds
                          for activities that could be initiated within 120 days of the date
                          that the Recovery Act was signed, or by June 17, 2009.

                          Bridge Alteration Projects

                          According to the Coast Guard, it planned to commit 100% of its
                          Recovery Act funds for bridge alteration within 120 days of
                          enactment but actually committed 0% of these funds during this
                          period. Delays in obligating these funds occurred when the
                          proposed bid period was lengthened in order to accommodate
                          increased contractor interest in bidding for these projects. Bridge
                          owners awarded or plan to award contracts according to the
                          following schedule:

6
    Commandant Instruction M9000.6E, Naval Engineering Manual, October 2004.


Review of the U.S. Coast Guard’s Expenditure Plans for the American Recovery and Reinvestment Act of 2009

                                                 Page 6
                                                                                                       Planned or Actual Contract
                                        Bridge Name
                                                                                                              Award Date
                                   Burlington Bridge                                                         July 31, 2009
                                   Mobile Bridge                                                                  August 20, 2009
                                   Elgin, Joliet & Eastern Bridge                                                 September 2009
                                   Galveston Causeway Bridge                                                      September 2009


                           Bridge owners also plan to complete these four bridge projects
                           by the fourth quarter of FY 2011 or earlier. The following graph
                           shows the Coast Guard’s schedule of planned and actual
                           obligations (commitments to pay) and planned outlays (actual
                           payments) for the bridge alteration projects through FY 2010.
                           Appendix C contains a more detailed schedule.


                                                        Alteration of Bridges (in Millions of Dollars)

                              $160

                              $140
                                                          100.0%




                                                                                 100.0%




                              $120

                              $100

                                                   June 17,
                               $80
                                                     2009

                               $60

                               $40
                                                                                                                           22.3%
                                                                     4.5%




                                                                                                                                            19.9%




                                                                                                                                                                              6.5%
                                                                                          15.4%




                                                                                                          16.1%




                                                                                                                                                             15.2%
                               $20

                                 $0
                                       Q2            Q3                     Q4                    Q1              Q2               Q3               Q4
                                                       FY 2009                                                          FY 2010                                      FY 2011-
                                                                                                                                                                       2012
                 Planned Obligations    $0.0           $142.0                 $0.0                 $0.0             $0.0            $0.0             $0.0             $0.0
                 Actual Obligations     $0.0            $0.0                 $142.0
                 Planned Outlays            $0.0          $6.4               $21.9                 $22.9            $31.6           $28.3            $21.6             $9.3
                                                                                                        Fiscal Year


                           Shore Facility and Vessel Projects

                           The expenditure plan for shore facility and vessel projects did
                           not meet the “preference for quick-start activities” goal.
                           According to the Coast Guard, it obligated 7.7% of the shore
                           facility and vessel acquisition, construction, and improvement
                           funds by June 17, 2009. The Coast Guard said it could not


Review of the U.S. Coast Guard’s Expenditure Plans for the American Recovery and Reinvestment Act of 2009

                                                                   Page 7
                              obligate the funds sooner because it needed more time to develop
                              and award procurement contracts that satisfy the competitive
                              sourcing requirements of the Federal Acquisition Regulation.
                              However, the Coast Guard plans to obligate all funds by
                              September 30, 2010, as required by the Recovery Act. The
                              following graph shows the Coast Guard’s schedule of planned
                              and actual obligations and planned outlays for shore facility and
                              vessel improvements projects through FY 2010. Appendix C
                              contains a more detailed schedule.

                                                                             Acquisitions, Construction, and Improvements (in Millions of Dollars)

                                  $70




                                                                                                                                                                                                      63.1%
                                  $60




                                                                                                                                                                         55.4%
                                  $50              June 17,
                                                     2009
                                  $40



                                  $30



                                  $20




                                                                                                                                20.7%




                                                                                                                                                                                  15.8%
                                                                                                         5.4%
                                                                                   15.0%




                                                                                                          3.4
                                                                                                                %

                                                                                                                    2.4%




                                                                                                                                                     2.8%
                                                                                             2.1%
                                                             0.65%




                                  $10




                                                                                                                                                             8.6%
                                                                     7.7%




                                                                                                                                         8.0%
                                     $0
                                          Q2           Q3                     Q4                    Q1                     Q2                   Q3                  Q4
                                                            FY 2009                                                                      FY 2010                                          FY 2011-2012
                   Planned Obligations         $0.00         $0.64                  $14.66               $5.33                  $20.29               $2.76               $54.33              $0.00
                   Actual Obligations          $0.00         $7.50                   $0.00
                   Planned Outlays             $0.00         $0.00                   $2.05               $2.39                   $7.89               $8.44               $15.44              $61.80




                              Special Contracting Provision

                              The special contracting provision (section 1554 of the Recovery
                              Act) recommended that, to the maximum extent possible,
                              recipients award fixed-price contracts through the use of
                              competitive procedures.

                              Bridge Alteration Projects

                              The Coast Guard’s expenditure plan for the bridge alteration
                              projects addressed this goal. According to the Coast Guard, the
                              bridge owners will advertise and award (in consultation with the
                              Coast Guard) fixed-price bridge alteration contracts through a
                              competitive bidding process.




Review of the U.S. Coast Guard’s Expenditure Plans for the American Recovery and Reinvestment Act of 2009

                                                                            Page 8
                          The Coast Guard also plans to use competitive procedures to
                          award fixed-price contracts for most of the proposed shore
                          facility and vessel projects. However, two contracts for vessel
                          improvements will be awarded based upon other than full and
                          open competition due to requirements for the procurement and
                          installation of brand name specific equipment.

                          We do not make any recommendations in this report.

        Management Comments and OIG Analysis
                          The Coast Guard appreciates the OIG’s analysis of the U.S.
                          Coast Guard’s Expenditure Plans for the American Recovery and
                          Reinvestment Act of 2009 and concurs with the report. The Coast
                          Guard also provided technical comments which were
                          incorporated into the report.

                          We included the comments from the Deputy Assistant
                          Commandant for Resources and Deputy chief Financial Officer
                          for the U.S. Coast Guard in Appendix B.




Review of the U.S. Coast Guard’s Expenditure Plans for the American Recovery and Reinvestment Act of 2009

                                                 Page 9
Appendix A
Purpose, Scope, and Methodology

                          The objective of our review was to determine whether the Coast
                          Guard developed practical, thorough, and comprehensive plans to
                          spend the funds provided in the Recovery Act for the alteration of
                          bridges and for acquisition, construction, and improvements to
                          shore facilities and vessels. Our review included a determination
                          of whether the Coast Guard followed its own criteria for
                          prioritizing projects. We did not evaluate the original process the
                          Coast Guard used to establish its criteria or any underlying
                          assumptions. We:

                              •	   Reviewed laws, regulations, and guidance related to the
                                   Recovery Act;
                              •	   Obtained information on the processes and controls in place
                                   for budgetary resources management and financial and
                                   contract management;
                              •	   Examined prior audit reports that provided suggested
                                   improvements in the program-specific areas and
                                   Department of Homeland Security acquisition management
                                   and acquisition workforce planning;
                              •	   Reviewed the Coast Guard’s Recovery Act expenditure
                                   plan, dated April 3, 2009, for alteration of bridges eligible
                                   under the Truman-Hobbs Act of 1946;
                              •	   Reviewed the Coast Guard’s Recovery Act expenditure
                                   plans, dated April 3, 2009 and July 30, 2009, for
                                   acquisition, construction, and improvements to shore
                                   facilities and vessels;
                              •	   Reviewed documentation in support of the Recovery Act
                                   project expenditure plans, such as program-specific draft
                                   Recovery Act plans, and methodologies used to select
                                   projects targeted for Recovery Act expenditures; and
                              •	   Interviewed the Coast Guard Senior Accountable Official,
                                   as well as officials from the Coast Guard Bridge, Naval
                                   Engineering, and Shore Facilities Programs. We conducted
                                   these interviews at the Coast Guard’s headquarters offices
                                   in Washington, DC.

                          We performed our review between March 2009 and August 2009
                          under the authority of the Inspector General Act of 1978.

                          We would like to thank the Coast Guard for the cooperation and
                          courtesies extended to our staff during this review.




 Review of the U. S. Coast Guard’s Expenditure Plan for the American Recovery and Reinvestment Act of 2009

                                                 Page 10
Appendix B
Management Comments to the Draft Report

      .u.s....oep. art......erltb~f.. ..
       .HomolandSQçurlty .
       United States
       Coast Guard




       From:



       To: Anne L. Ricba.rds
                     Assistant Inspector General for Audits
                     Deparment of       Homeland Secunty

        Sl,bj: USCG COMMENTS ON OIG DRAFT REPORT ON AR EXPENDiTURE PLANS
        Ref: (a)OBS orG Oraft Report of Septern~r to, 2009
        1. This memorandum transmits the CoastOuad'5responseto the Of:ce of Inspetor Oenet.a1
        (010) report findin~s and recommendations contained                        in reference (a.).

        2. The Coast Guard appreciates the 01(1'5 analysis of our U.S. Coast Guard's Expenditure Plans
        for the. Amencan Recovery and Reinvestment Act of 2009 and concur wiui report
        3. Lised beløw are OUt comments by page number and topics:

        a. Pag. 3: .     Brtdge Program Table. As shown please redact                        dollar amoWllS associated withtlie
        specific bndge projects. Theplanped aI()unlS for projects not yet awarded are procurement
        sensitve. Please retain the subtotal andtotå! amounts.

        b. Page 3: AcqUisition, Cori8tJ'(ltion~.andImpro'\enients to .Fa£:îliies and Vessels -
        Recmmend changin~"desigra,ted" to "appropnated" in the first line,

        c. Page 6: Bridge Alteration Projects -The CoastOuard does not¡:ward contracts for the
        alteration of
                    bridges. Contracts are awarded by the bridge owners. The .ias sentence should read:
        "Bndge owners awarded or plan to award contrCts according to the fOllowingsebedule:"
        d. Pa~e 1: Bl'dge Table -Elgin,Npllet and Eastern Bridge planned awatd date is. September
        2009 instead ofAu~st 20. 2009.. Mobile Bridge.ac.tua.l award date Was Augut 2Q, 20Q9 instead
        ofSepteinber 2009, The first sentence below this mble                       shpuld    read: "Bridge owners also plan    to
        complete uiese fOur bndge projects by the fourth quaer                        of FY2011 Or /.arlier,"

        e. Page 7:       Bridge Table - Alteration of Bridges (in MUUons ofDoUars) -change Actua
        Obligations from $51,OM to St42,M as ofSeptember21, 2009.

         f. Page     9: Shore Faemty and Vessel               ProJects - The       "Special Contracting       Provision" section
         about "Shore FaciIties and Vessel Project" states the"Two contracts for the                           vessel
         improvements wil be sole-soure contracts, The                     Coast    Ouard    plans to     award one cogtractlo an 8
         (a) vendor," This is incorrect, neither of the sole-soureawardees for the vessel projects will be 8
         (a.) vendors.




 Review of the U. S. Coast Guard's Expenditure Plan for the American Recovery and Reinvestment Act of 2009


                                                                  Page
Appendix B
Management Comments to the Draft Report

. Subj: USCG COMMENTS ON OlG DRAFT R.EPORT ON ARM EXPEDlTURE PLANS


 g. Page 12: Appendix C - As shown redad in both tables all project specific quarerly
 distribution amounts associated with the two below appropriations which are procurement
 sensitive. However, you may leave the tota quarly amounts.
 h. Page 13: Appendi1 C - As shown redael in both tables all project specitc quarerly
 distribution   amounts associated with the two below appropriations which are procurement
 sensitive. However, you may leave the total quaerly    amounts.
 i. Paçe 14: ~ppendb C - As ~hown redad all project specific quarrly distribution amounts
 associated with the WHEe Project. However, you may leave the total quaerly amounts.

 4. Tfyou have any questions, Mr. Mark Kulwicki at (202) 372.3533. Alterntively, Commander
 Todd Offtt Chief of  Extemal Coordination can be reached at (202) 372~3S35.



                                                       #




                                                       2




 Review of the U.S. Coast Guard's Expenditure Plans for the American Recovery and Reinvestment Act of 2009



                                                           Page 12

Appendix C
Schedule of Obligations and Outlays for Recovery Act Funds

Alteration of Bridges

Schedule of Obligations and Outlays:

          Bridge Name                     Planned               Estimated Outlays of ARRA funds (Millions)
                                        Obligation of
                                           Funds
                                           FY09             FY09     FY09      FY10     FY10     FY10         FY10
                                             Q3              Q3       Q4        Q1       Q2       Q3           Q4
Mobile Bridge
Elgin, Joliet & Eastern Bridge
Burlington Bridge
Galveston Causeway Bridge
               Total                       $142.0            $6.1     $21.9    $32.5    $31.6    $28.3        $21.6

Acquisition, Construction, and Improvements to Facilities and Vessels

Shore Facilities

Schedule of Shore Facility Obligations:

      Shore Facilities Project              Total             Estimated Obligations of ARRA funds (Millions)
                                        Appropriation
                                          (Millions)
                                                            FY09     FY09      FY10      FY10      FY10       FY10
                                                             Q3       Q4        Q1        Q2        Q3         Q4
Station Coos Bay Covered Mooring
Coast Guard Cutter Sycamore
Cordova Housing Phase IV
Station Neah Bay Covered Moorings
Support Center Elizabeth City
Replacement of Thrun Hall (Phase I)
Station Indian River Bulkhead
Repairs
Training Center Yorktown Water
Distribution System
Group/Air Station North Bend
Engineering & Aviation Survival
Technician Building
                Total                       $88.00                   $12.45             $19.00     $2.55      $54.00




 Review of the U. S. Coast Guard’s Expenditure Plan for the American Recovery and Reinvestment Act of 2009


                                                 Page 13

    Appendix C
    Schedule of Obligation and Outlays for Recovery Act Funds

    Schedule of Shore Facility Outlays:

      Shore Facilities Project                Total              Estimated Outlays of ARRA funds (Millions)
                                             Outlay
                                            (Millions)
                                                         FY09        FY09    FY10    FY10      FY10     FY10       FY11
                                                          Q3          Q4      Q1      Q2        Q3       Q4
Station Coos Bay Covered Mooring
Coast Guard Cutter Sycamore
Cordova Housing Phase IV
Station Neah Bay Covered Moorings
Support Center Elizabeth City
Replacement of Thrun Hall (Phase I)
Station Indian River Bulkhead
Repairs
Training Center Yorktown Water
Distribution System
Group/Air Station North Bend
Engineering & Aviation Survival
Technician Building
                Total                        $88.00                  $1.41   $1.55   $4.70     $6.45    $13.42     $60.47

    Vessel Projects

    Schedule of Vessel Project Obligations:

             WHEC Project                       Total                Estimated Obligations of ARRA funds (Millions)
                                            Appropriation
                                              (Millions)
                                                                FY09         FY09    FY10        FY10      FY10       FY10
                                                                 Q3           Q4      Q1          Q2        Q3         Q4
    Engineering Technical Support
    Boiler Fireside Upgrades and
    Reliability Improvement
    Automatic Bus Tie Switch
    Upgrade
    Lube Oil Purifier Replacement
    Refrigeration System Upgrade
    Fire and Smoke Alarm System
    Auxiliary Salt Water Pump
    Replacement
                  Total*                        $10.00           $0.64       $2.21     $5.33      $1.29    $0.21      $0.33
    *Minor Rounding Differences May Exist




      Review of the U.S. Coast Guard’s Expenditure Plans for the American Recovery and Reinvestment Act of 2009 


                                                         Page 14 

   Appendix C
   Schedule of Obligation and Outlays for Recovery Act Funds

   Schedule of Vessel Project Outlays:

     WHEC Project                    Total               Estimated Outlays of ARRA funds (Millions)
                                    Outlay
                                   (Millions)
                                                FY09      FY09     FY10       FY10      FY10      FY10      FY11
                                                 Q3        Q4       Q1         Q2        Q3        Q4
Engineering Technical
Support
Boiler Fireside Upgrades
and Reliability
Improvement
Automatic Bus Tie Switch
Upgrade
Lube Oil Purifier
Replacement
Refrigeration System
Upgrade
Fire and Smoke Alarm
System
Auxiliary Salt Water Pump
Replacement
           Total*                    $10.00                $0.64    $0.84      $3.19     $1.99     $2.02     $1.34
   *Minor Rounding Differences May Exist




     Review of the U.S. Coast Guard’s Expenditure Plans for the American Recovery and Reinvestment Act of 2009

                                                       Page 15
Appendix D
Major Contributors to This Report


                          Brooke Bebow, Director
                          Linda Howard, Director
                          Lorinda Couch, Project Lead
                          Mary Williams, Auditor
                          Christopher Byerly, Analyst
                          Tessa May-Fraser, Analyst
                          Nga Dang, Analyst
                          Lovella Viray, Analyst
                          Lindsay Kirchoffner, Analyst
                          Andrea Rambow, Desk Officer
                          Lisa Vonder Haar, Desk Officer
                          Andre Marseille, Independent Referencer




 Review of the U. S. Coast Guard’s Expenditure Plan for the American Recovery and Reinvestment Act of 2009

                                                 Page 16
Appendix E
Report Distribution


                          Department of Homeland Security

                          Secretary
                          Deputy Secretary
                          Chief of Staff for Operations
                          Chief of Staff for Policy
                          General Counsel
                          Executive Secretariat
                          Director, GAO/OIG Liaison Office
                          Assistant Secretary for Office of Policy
                          Assistant Secretary for Office of Public Affairs
                          Assistant Secretary for Office of Legislative Affairs
                          United States Coast Guard Liaison

                          Office of Management and Budget

                          Chief, Homeland Security Branch
                          DHS OIG Budget Examiner

                          Congress

                          Congressional Oversight and Appropriations Committees, as
                          appropriate




 Review of the U. S. Coast Guard’s Expenditure Plan for the American Recovery and Reinvestment Act of 2009

                                                 Page 17
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
